ES, IG-98-014, Lewis Research Center's Hazardous Waste Manifest Process
LEWIS RESEARCH CENTER'S
HAZARDOUS WASTE MANIFEST PROCESS
IG-98-014
Executive Summary
Introduction
The purpose of this audit was to determine whether National Aeronautics and
Space Administration (NASA) Lewis Research Center (LeRC) properly managed
the hazardous waste leaving its facilities.  Specifically, we assessed
whether LeRC had controls in place to achieve compliance with hazardous
waste regulations and whether the controls were adequate.
Environmental Protection Agency (EPA) and Department of Transportation
regulations govern the disposal of hazardous waste due to its danger to
human health and the environment.  LeRC is responsible and liable for the
hazardous waste until disposal; therefore, proper identification and
physical control over LeRC-generated waste is important.  The key document
used to track the waste throughout the disposal process is the EPA hazardous
waste manifest form, which the EPA requires the generator (LeRC) to
certify.
Results of Audit
LeRC's hazardous waste manifest process was generally compliant with the
environmental, transportation, and LeRC regulations and requirements
tested.
However, internal control weaknesses existed in four areas essential to
ensuring full regulatory compliance and minimizing LeRC's liability when
disposing of hazardous waste.  First, a 24-hour emergency response telephone
number was not included or clearly visible on all hazardous waste manifest
forms.  Second, the hazardous waste manifest files maintained by the support
service contractor did not contain documentation to support compliance
with regulations, and the manifests were not accurate.  Third, manifests
were not being adequately controlled to ensure review and signature by
authorized personnel.  Lastly, required training by environmental office
civil servant and contract staff was not completed.  Additionally, the
Environmental Management Office's support service contractor was not always
implementing a compliant hazardous waste management program as required by
the contract.
This report contains recommendations that will help the Center ensure
regulatory compliance and the effective management of the hazardous waste
manifest process.